HHS/OIG, Audit -"Review of the Adequacy of New Jersey Controls for Preventing Duplicate
Medicaid and State Children's Health Insurance Program Payments,"(A-02-04-01011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of the Adequacy of New Jersey Controls for Preventing Duplicate Medicaid and State Children's
Health Insurance Program Payments," (A-02-04-01011)
March 16, 2006
Complete
Text of Report is available in PDF format (415 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The initial objectives of the audit were to determine whether New Jersey had adequate controls
to (1) prevent Medicaid and State Children's Health Insurance Program (SCHIP) from paying
providers for the same service to the same beneficiary and (2) prevent individuals from enrolling
in both Medicaid and SCHIP or in multiple SCHIP plans. After preliminary audit work, we added
a third objective:  to determine whether New Jersey accurately reported Title XXI payments
to CMS.  New Jersey's controls were adequate to prevent Medicaid and SCHIP from paying
providers for the same service to the same beneficiary and to prevent individuals from enrolling
in both Medicaid and SCHIP or in multiple SCHIP plans. However, New Jersey overstated SCHIP
payments for certain services on its reports.
We recommended that New Jersey:  (1) adjust SCHIP payments on the CMS reports by $9,142,057
and refund the $5,942,337 Federal share; (2) determine reported overpayments after March
31, 2004, and refund the Federal share; (3) correct the programming error affecting the reports
after March 31, 2004; and (4) reconcile SCHIP expenditures on the reports to the States
database of paid claims to prevent any recurrence of this error.  State officials concurred
with our findings and recommendations.